<html>
<title> - NATIONAL DEFENSE AUTHORIZATION ACT FOR FISCAL YEAR 2008 AND OVERSIGHT OF PREVIOUSLY AUTHORIZED PROGRAMS BEFORE THE COMMITTEE ON ARMED SERVICES HOUSE OF REPRESENTATIVES ONE HUNDRED TENTH CONGRESS FIRST SESSION</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]



                         [H.A.S.C. No. 110-22]

                                HEARING

                                   ON


 
                   NATIONAL DEFENSE AUTHORIZATION ACT

                          FOR FISCAL YEAR 2008

                                  AND

              OVERSIGHT OF PREVIOUSLY AUTHORIZED PROGRAMS

                               BEFORE THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                MILITARY PERSONNEL SUBCOMMITTEE HEARING

                                   ON

BUDGET REQUEST ON THE IMPACT OF CHANGES TO THE RESERVE MONTGOMERY G.I. 
                                  BILL

                               __________

                              HEARING HELD

                           FEBRUARY 28, 2007



[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]


                                -------

                     U.S. GOVERNMENT PRINTING OFFICE

38-661                     WASHINGTON DC:  2008
---------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing
Office  Internet: bookstore.gpo.gov Phone: toll free (866)512-1800
DC area (202)512-1800  Fax: (202) 512-2250 Mail Stop SSOP, 
Washington, DC 20402-0001









                    MILITARY PERSONNEL SUBCOMMITTEE

                     VIC SNYDER, Arkansas, Chairman
MARTY MEEHAN, Massachusetts          JOHN M. McHUGH, New York
LORETTA SANCHEZ, California          JOHN KLINE, Minnesota
SUSAN A. DAVIS, California           THELMA DRAKE, Virginia
NANCY BOYDA, Kansas                  WALTER B. JONES, North Carolina
PATRICK J. MURPHY, Pennsylvania      JOE WILSON, South Carolina
CAROL SHEA-PORTER, New Hampshire
               Keven Coughlin, Professional Staff Member
               Jeanette James, Professional Staff Member
                   Margee Meckstroth, Staff Assistant











                            C O N T E N T S

                              ----------                              

                     CHRONOLOGICAL LIST OF HEARINGS
                                  2007

                                                                   Page

Hearing:

Wednesday, February 28, 2007, Fiscal Year 2008 National Defense 
  Authorization Act--Budget Request on the Impact of Changes to 
  the Reserve Montgomery G.I. Bill...............................     1

Appendix:

Wednesday, February 28, 2007.....................................    27
                              ----------                              

                      WEDNESDAY, FEBURARY 28, 2007
FISCAL YEAR 2008 NATIONAL DEFENSE AUTHORIZATION ACT--BUDGET REQUEST ON 
       THE IMPACT OF CHANGES TO THE RESERVE MONTGOMERY G.I. BILL
              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

McHugh, Hon. John M., a Representative from New York, Ranking 
  Member, Military Personnel Subcommittee........................     2
Snyder, Hon. Vic, a Representative from Arkansas, Chairman, 
  Military Personnel Subcommittee................................     1

                               WITNESSES

Dominguez, Hon. Michael, Principal Deputy Under Secretary of 
  Defense for Personnel and Readiness............................     3
Wilson, Keith, Director of Education Service, Veterans Benefits 
  Administration, Department of Veterans Affairs.................     5

                                APPENDIX

Prepared Statements:

    Dominguez, Hon. Michael......................................    33
    McHugh, Hon. John M..........................................    31
    Wilson, Keith................................................    43

Documents Submitted for the Record:

    Assessment of a G.I. Bill for the Total Force, Department of 
      Defense/Department of Veterans Affairs Working Group, 
      Executive Summary..........................................    79
    Statement of American Council on Education submitted by David 
      Ward, President............................................    74
    Statement of Joseph C. Sharpe, Jr., Deputy Director, Economic 
      Commission, The American Legion............................    66
    Statement of Partnership for Veterans' Education on the Total 
      Force Montgomery G.I. Bill (H.R. 1102).....................    51
    Statement of Reserve Officers Association (ROA)..............    72
    Statement of the National Association for Uniformed Services 
      (NAUS) on H.R. 1102, The Total Force G.I. Bill submitted by 
      Rick Jones, NAUS Legislative Director......................    59
    Statement of the Naval Reserve Association...................    62
    Views and Cost Estimate H.R. 1211............................    75

Questions and Answers Submitted for the Record:

    Mr. McHugh...................................................    95
    Mr. Murphy...................................................    95










FISCAL YEAR 2008 NATIONAL DEFENSE AUTHORIZATION ACT--BUDGET REQUEST ON 
       THE IMPACT OF CHANGES TO THE RESERVE MONTGOMERY G.I. BILL

                              ----------                              

                  House of Representatives,
                       Committee on Armed Services,
                           Military Personnel Subcommittee,
                      Washington, DC, Wednesday, February 28, 2007.
    The subcommittee met, pursuant to call, at 2:30 p.m., in 
room 2118, Rayburn House Office Building, Hon. Vic Snyder 
(chairman of the subcommittee) presiding.

  OPENING STATEMENT OF HON. VIC SNYDER, A REPRESENTATIVE FROM 
      ARKANSAS, CHAIRMAN, MILITARY PERSONNEL SUBCOMMITTEE

    Dr. Snyder. The committee will come to order.
    Gentlemen, we appreciate your being here today. Our 2 
o'clock hearing is starting at 2:30 because of votes and a busy 
afternoon, and we appreciate you waiting.
    I am pleased that you all are here today. I am pleased that 
we are having this hearing on the impact of changes to the 
Montgomery G.I. Bill (MGIB) for members of the Selected 
Reserves (SR).
    I am going to be very brief in my opening statement, but 
the sentiment for a lot of us is that the changing use of the 
reserve component is different than when the Montgomery G.I. 
Bill was set up in decades past and that we need to revisit 
this.
    Mr. McHugh very graciously held a joint hearing with one of 
the subcommittees from the Veterans' Affairs Committee last 
year when he was chairman of this subcommittee on these issues, 
and we had some of these discussions that I am sure will 
continue today in more detail.
    Some of us filed a bipartisan bill with both Senate and 
House sponsors a couple of weeks ago, H.R. 1102, the Total 
Force Educational Assistance Enhancement and Integration Act of 
2007.
    And part of our discussion today is specific things we 
might need to do to improve that bill, but also to discuss the 
broader issue of the G.I. bill and its role in the military 
today.
    And I want to emphasize a point that I made before. We are 
not looking for equality between reserve component benefits and 
active component. Everyone recognizes they can't be equal. But 
we need to look for equity.
    And in the view of a lot of us, we have failed to achieve 
that and that our laws are failing our reserve component now.
    I also want to call attention to the fact that we have a 
number of veterans service organizations who have asked to 
submit written statements for the record.
    If there is no objection, I ask unanimous consent that 
those statements, which have been submitted by the following, 
be allowed in the record: the Partnership for Veterans 
Education, the National Association for Uniformed Services, the 
Naval Reserve Association, the American Legion, the Reserve 
Officers Association and the Reserve Enlisted Association, and 
the American Council on Education.
    I would ask that those statements be allowed in the record.
    [The statements referred to can be found in the Appendix 
beginning on page 51.]
    Dr. Snyder. And Mr. McHugh is recognized for such time as 
he needs.

  STATEMENT OF HON. JOHN M. MCHUGH, A REPRESENTATIVE FROM NEW 
     YORK, RANKING MEMBER, MILITARY PERSONNEL SUBCOMMITTEE

    Mr. McHugh. Thank you very much, Mr. Chairman. I would ask 
unanimous consent my full statement can be entered in its 
entirety in the record.
    Dr. Snyder. Without objection.
    Mr. McHugh. Thank you.
    And just a couple opening comments.
    Mr. Chairman, I think you set the stage very well. I 
certainly want to add my words of welcome to our two 
distinguished witnesses. We apologize for the late start, but 
it is the unwritten rule of Congress: schedule a meeting and a 
vote will happen. No way around that.
    This is an important issue, and one in which I think there 
is a broad-based agreement in principle, that clearly the 
structure that gave birth to the government G.I. bill, with 
respect to active versus reserve components, is no longer 
prevalent.
    There needs to be changes made that at least make for a 
somewhat more level playing field. There are critical issues of 
recruiting and retention. We need to do this for the troops. 
This is something that, obviously, as you look at the 
percentages, they feel is very, very important, a great benefit 
of being in the military.
    But it serves us as well in helping us to encourage young 
men and women to come to the all-volunteer force, and we want 
to make sure that that is continued as well.
    There have been a number of bills introduced already. The 
chairman has introduced not just bipartisan but a bicameral, 
House and Senate, initiative.
    Actually, Dr. Bartlett, Roscoe Bartlett, of the full 
committee has introduced his version. And I am sure there will 
be others as we go along, so we have a lot of focus here.
    And I commend you, Mr. Chairman, for continuing to move 
this initiative hopefully to a point in the not-too-distant 
future when we can make relevant and efficacious changes to 
this very, very worthy program.
    With that, I would yield back.
    [The prepared statement of Mr. McHugh can be found in the 
Appendix on page 31.]
    Dr. Snyder. Thank you, Mr. McHugh.
    I also want to acknowledge this huge room. It seems like 
you are a long way away, but we will conduct this hearing with 
the same coziness that we usually do in our other meeting room.
    We are just having the one panel today. We are pleased to 
have both of you here: the Honorable Michael Dominguez, the 
Principal Deputy Under Secretary of Defense for Personnel and 
Readiness, and Mr. Keith Wilson, Education Service Director, 
Veterans Benefits Administration, Department of Veterans 
Affairs (VA).
    And, gentlemen, welcome. And we will go in whatever order 
you all have decided you wanted to go, as far as your opening 
statements.

STATEMENT OF HON. MICHAEL L. DOMINGUEZ, PRINCIPAL DEPUTY UNDER 
        SECRETARY OF DEFENSE FOR PERSONNEL AND READINESS

    Mr. Dominguez. Chairman Snyder and Congressman McHugh, 
first, thank you for everything you do for the men and women of 
the armed forces. You have certainly made great contributions 
to sustaining the all-volunteer force during this time of 
unprecedented conflict duration.
    And thanks for the opportunity to discuss the educational 
assistance program for the Guard and Reservists.
    I want to begin by acknowledging the generosity of spirit 
and the deep concern for the welfare of the service men and 
women that motivated the changes to the educational program as 
recently proposed by you, Chairman Snyder. I feel honored for 
the privilege of working with both you and Congressman McHugh 
on these issues.
    I find myself, however, in this particular circumstance 
opposing consolidation of these programs into the V.A., and to 
recasting this as career transition programs at the expense of 
their powerful utility as retention tools.
    The Montgomery G.I. Bill for the selected reserve and the 
recently enacted Reserve Educational Assistance Program (REAP), 
helps us attract and retain Guard and Reserve members. These 
educational programs are among our most valuable retention 
incentives.
    They work as retention incentives because, unlike their 
active duty counterparts, most reservists do not begin a new 
career when they are released from active duty.
    Eighty percent of reservists were employed full time when 
activated. Twenty-six percent were enrolled in school. In both 
cases, they did this while participating in the selected 
reserve.
    Certainly, reintegration and readjustment are important to 
our citizen soldiers, particularly for those who do not return 
to the same employer and those who are not in the workforce 
when mobilized.
    But Guard and Reserve members can use these education 
benefits to train for new careers or to advance in their 
current careers.
    And we do not believe that the continued service 
requirement is onerous, since the first couple of years 
following mobilization are also the years when the demands to 
perform reserve service are at their lowest under the services' 
force generation models.
    It is also important to note that Secretary Gates's recent 
reserve access policy announcement provides an important 
measure of predictability about the frequency and duration of 
our military's service demands on members of the Guard and 
Reserve.
    At the hearing last fall on the same subject, the committee 
heard testimony urging Congress to combine the two reserve 
educational assistance programs into a single program under the 
Department of Veterans Affairs. There is already a single face 
to our educational institutions, and that is the V.A.
    Certainly, we should also consolidate the determination of 
which educational programs qualify, and that should be 
consolidated under a single legislative authority. But I am 
deeply concerned about changes to the reserve programs that 
would affect retention outcomes we hope to achieve with these 
programs.
    Half of those who serve in the selected reserve today have 
completed their initial military service obligation.
    Even among those who are still within their initial eight-
year military service obligation, many have no obligation to 
serve in the selected reserve. They can complete their service 
obligation in the individual ready reserve (IRR).
    This is why we are so intent on incentive being tied to 
service in the selected reserve. We need incentives that 
encourage and reward our Guardsmen and Reservists to stay with 
us, not to leave.
    And finally, our survey data tell us that Guardsmen and 
Reservists value and use this education benefit. And further, 
in our July 2005 survey, only four percent of Guard and Reserve 
members identified these education programs as needing 
improvement. These programs are not broken. They don't require 
radical restructuring.
    Mr. Chairman, we have given a great deal of thought to 
educational programs and changes that would improve these 
programs, while continuing to assist the Department of Defense 
(DOD) in meeting its force management objectives.
    In the short time since last year's hearing, which you made 
reference to, we were able to include two proposals in the 
Department's 2008 legislative program. The first would allow 
selected reserve members to retain their REAP eligibility 
indefinitely while in the individual ready reserve, rather than 
losing eligibility after 90 days.
    The second would allow selected reserve members who are 
separated due to draw-downs, to retain Montgomery G.I. Bill 
Selected Reserve eligibility until the delimiting date, just as 
we did during the force draw-downs in the 1990's.
    We have also been working closely with the Veterans 
Administration to identify changes to the educational 
assistance programs that improve those programs while not 
undermining retention. That work is still ongoing.
    Mr. Chairman, we also want to work with you and this 
committee to see if we can find a way to balance retention with 
providing our combat-proven Guardsmen and Reservists a benefit 
that meets their needs for reintegration and readjustment.
    I would again like to thank the committee for all its done 
for our men and women who serve this great country, and I look 
forward to your questions, sir.
    [The prepared statement of Mr. Dominguez can be found in 
the Appendix on page 33.]
    Dr. Snyder. Mr. Wilson.

STATEMENT OF HON. KEITH WILSON, DIRECTOR OF EDUCATION SERVICE, 
   VETERANS BENEFITS ADMINISTRATION, DEPARTMENT OF VETERANS 
                            AFFAIRS

    Mr. Wilson. Thank you. Good afternoon, Mr. Chairman. Good 
afternoon, Ranking Member McHugh and other members of the 
subcommittee.
    I appreciate the opportunity to appear before you today to 
discuss the impact of changes to the two existing Title 10 
reserve-guard education benefit programs administered by V.A.; 
namely, the Montgomery G.I. Bill Selected Reserve and the 
Reserve Educational Assistance Program, known as REAP.
    In particular, my testimony will address the major changes 
to those programs as proposed in H.R. 1102.
    The MGIB-SR is the first G.I. bill to provide educational 
assistance to members of the selected reserve, including 
National Guard members. The Department of Defense funds this 
program and is responsible for determining eligibility for the 
program. V.A.'s Veterans Benefits Administration is responsible 
for administering the program.
    MGIB-SR participants must agree to a six-year selected 
reserve obligation after June 30, 1985, must have completed the 
requirements of a secondary school diploma or its equivalent 
before applying for benefits, and generally must remain a 
member in good standing in the selected reserve.
    The maximum entitlement under this program is 36 months, 
and participants must generally use these benefits within 14 
years of their date of eligibility.
    The REAP program provides educational assistance to members 
of the Guard Reserve who serve on active duty in support of 
contingency operations under Federal authority on or after 
September 11, 2001.
    The Department of Defense again determines eligibility for 
this program. To establish eligibility, members must serve a 
minimum of 90 days on active duty. The maximum full-time 
entitlement allowed under this program is 36 months, and the 
benefit rate is a portion of the MGIB active duty program 3-
year enlistment rate.
    H.R. 1102 seeks to consolidate these two certain education 
programs and to provide an enhanced educational benefit to 
Guard and Reserve members. As these changes are considered, the 
basis for the programs should be a major guiding factor.
    The three R's of recruitment, retention and readjustment 
must continue to be the foundation upon which any total force 
education benefit is to be constructed.
    We believe the proposed changes should be transparent to 
eligible persons, and facilitate program Administration. Based 
on our experience in administering the education programs, we 
have noted that the cause of some of the greatest confusion and 
processing delays stems from the extensive eligibility criteria 
and myriad program elections that are currently required.
    Shifting the governing statutes for the Chapter 1606 and 
1607 programs from Title 10 to Title 38 may be appealing on the 
surface. However, while these may facilitate V.A. oversight, it 
has other broader implications.
    Clearly, it invests V.A. with new funding authority and 
responsibility beyond the Department's traditional role. In 
some cases, moreover, this may intrude upon matters more 
appropriately within the jurisdiction of the Department of 
Defense.
    One example of this is making V.A. partly responsible for 
determining kicker amounts. Not only is such a decision not 
within our area of expertise, but the required departmental 
consensus could also create unnecessary and inappropriate 
tensions between domestic spending initiatives for veterans and 
force management objectives for service members. Decisions on 
the latter, in our view, should rest solely with the Department 
of Defense.
    Otherwise, we have not fully assessed the impact on our 
Department of transferring the mentioned Title 10 programs to 
Title 38. Although we have not fully assessed the full cost of 
the bill, the proposed program changes would likely result in 
significant costs that are not included in the President's 
budget.
    For this and the previously mentioned reasons, V.A. cannot 
support this legislation.
    Mr. Chairman, this concludes my statement. I would be 
pleased to answer any questions you or any other members of the 
subcommittee may have.
    [The prepared statement of Mr. Wilson can be found in the 
Appendix on page 43.]
    Dr. Snyder. Thank you, Mr. Wilson.
    We are going to put ourselves on the five-minute clock.
    So that means, Mr. Murphy, you have ten minutes to get your 
thoughts together.
    Mr. Dominguez, I want to start with you, because you used 
the phrase that ``the system is not broken.''
    Mr. Dominguez. Sir.
    Dr. Snyder. But on page six of your opening statement, in 
my view, you make a very strong argument that the system is 
broken. And these are your words: ``To restore the historic 
relationship between the two programs, the Department of 
Defense estimates it would cost just over $13 billion over the 
next 5 years.''
    I mean, that sounds to me like we say a program is $13 
billion short to restore the equity that was there for the 
first 15 years or 18 years of the program.
    I mean, did the President include $13 billion in this 
budget?
    Mr. Dominguez. Sir, the retention in the Guard and Reserve 
is at historic highs.
    Dr. Snyder. Woah, woah, woah, woah. You are answering a 
question I didn't ask.
    Mr. Dominguez. No. This is a force management and a 
retention incentive program, so that the amount of money that 
this committee authorizes to be put in and paid out is driven 
by the retention needs and our force management needs. It is 
achieving that purpose.
    And the members of the Guard and Reserve don't rate this as 
a program needing improvement. If you had $13 billion, 
according to the surveys we did in July 2005, we should put it 
in health care.
    Dr. Snyder. Well, we are having the same discussion we had 
back some time in the fall in which I think I asked you if we 
just took the benefit down to, you know, eight dollars a month, 
as long as retention rates didn't change, you would be 
satisfied with it.
    And that is not what the attitude of the American people or 
this Congress is today. And so what happened before was, 
because of the statutory issues, we raised, under Chris Smith's 
leadership on the House Veterans' Committee when he was 
chairman, we raised the ACLE component.
    We couldn't get DOD to go along, and so we went from, what 
is it, 47 cents on the dollar to 29 cents on the dollar for the 
reserve component. I think that is a broken--I think it is 
broken, Mr. Secretary.
    And I want to take up what Mr. Wilson said. He has his 
three. He has three. I have a couple others there, too. He 
talks about it being a recruitment program, a retention tool 
and a readjustment tool.
    Well, you completely ignore, in my view, the readjustment 
component of it and had no discussion about what the potential 
recruitment benefit could be.
    And you have got this other issue of could this be a tool, 
the way we are talking about doing it, to encourage people to 
volunteer for mobilization. And so you are hanging your hat on 
retention.
    As long as, you know, $8 a month or $20 a month, or 
whatever it is--as long as the retention rates stay the same, 
through a lot of hard work on the part of senior non-
commissioned officers (NCOs) and everybody to get people to 
sign up. I don't think that is the way that the American people 
see this program.
    Mr. Dominguez. This is a valuable recruitment program, 
particularly for the younger men and women, the 17- to 25-year-
olds, because they do value this program greatly. They know how 
much we pay when they sign up and join the selected reserve. So 
it is a transparent transaction.
    Dr. Snyder. Well, I know I have had people come to my 
office and not realize that they had no benefit once they are 
no longer in the reserve, so we have got some education issues 
there.
    And also, at the time, as you know, a lot of people signed 
up. They didn't know they were going to be mobilized for the 
length of time they are being mobilized and that their only 
choice is to somehow use their benefits in Iraq or Afghanistan, 
and that that is obviously not going to work.
    And so I don't think you all are acknowledging that there 
are some breaks in the system, and the Congress is interested 
in doing some fixes.
    I want to make another point. In your written statement and 
today, too, you talk about people going back to their jobs. And 
this gets to this readjustment phenomenon.
    I heard former Secretary of Treasury Lawrence Summers 
talking yesterday. And I don't know what the numbers are, but, 
you know, I am almost 60 years old, and when I got out of high 
school, the expectation I might have a job for the rest of my 
life, the same job, was not unreasonable.
    In this changing economy, I don't know what the turnover is 
now. Mr. McHugh, I think it is like 7 jobs through a career a 
20-year-old can estimate having.
    We need to be recognizing that just because somebody came 
into the reserve component, was mobilized for 18 months or 2 
years, that came from a job, that that same job is there for 
them when they get out.
    And I think this readjustment component is not getting the 
attention it ought to from DOD's stance on these----
    Mr. Dominguez. Sure. The Uniformed Services Employment and 
Reemployment Rights Act of 1984 (USERRA) is a great law, number 
one, and that----
    Dr. Snyder. I am sorry, sir, I didn't hear.
    Mr. Dominguez. USERRA is a great law in terms of the--when 
mobilized members are returned, the USERRA law passed by the 
Congress ensures that their job will be there for them in most 
circumstances.
    Dr. Snyder. Well, not if the factory is closed because they 
no longer make the product.
    Mr. Dominguez. Yes, sir. In most circumstances. But here is 
how we think about this. The REAP, which, again, that is 
another fabulous program enacted by this Congress very 
recently, specifically to address the burdens we were placing 
on members of the Guard and Reserve as they shift into an 
operational reserve and are engaged into the fight.
    They can use those programs and become full-time students. 
And they can do that while they have a part-time job with us 
and get an income through their selected reserve participation. 
This can be viewed as a win-win, particularly, again, because 
Secretary Gates has established some very clear parameters 
around the expectation of use.
    And all the services are developing these force generation 
models so that they can be clear with members of the Guard and 
Reserve about this is when you go, here is when we need you, 
this is what you can expect in terms of our demands on you for 
military service.
    With those things happening, I think it is reasonable to 
expect service in the selected reserve while using the 
educational benefits.
    Now, I also want to point out that, you know, anyone who 
serves 2 continuous years--and there have been some 10,000 or 
so people--both as volunteers and involuntary mobilization--it 
doesn't matter how they activated--they earn the same 
entitlement that the active did, which is because they served 2 
continuous years on active service.
    And so they have MGIB eligibility and the same portability, 
the same, you know, everything with that.
    Dr. Snyder. Mr. McHugh.
    Mr. McHugh. Thank you, Mr. Chairman.
    As I said in my opening statement, I fully recognize the 
importance of this as a tool for--I hear a lot from our 
distinguished witnesses about retention, but I would argue 
recruitment as well. I am pretty certain you agree with that.
    Mr. Dominguez. Yes, sir. Absolutely.
    Mr. McHugh. That is why I just wonder if a survey of those 
who have already been recruited under the old system to 
determine the efficacy of the old system is a good way to 
determine what you are not getting rather than what you have 
gotten.
    I don't know if that makes sense to you, but what I am 
suggesting is I look at the figures. In the active duty 
component, 97 percent of active duty members currently enroll 
in the MGIB. On the reserve side, I don't have that same figure 
for enrollment, but utilization is about 38 percent.
    That would suggest to me there is a whole lot of folks out 
there that aren't participating. I can't tell you why. I don't 
know. And I just can't help but wonder how many folks might be 
helped into recruiting on the reserve side were there some sort 
of more robust benefit.
    I listened very carefully to the chairman's opening 
comments. He said he is not trying to make them equal but, 
rather, to try to equalize some of the historical gaps that 
have grown up over time.
    You did mention that, Mr. Secretary, as to bring it up to 
equity, but I want to be sure, because your statement is a 
little unclear. Does the Department support bringing the 
percentages back in line as they were when this program was 
created in 1985 between the reserve and the active?
    Mr. Dominguez. Applying the same logic the Congress did in 
denying our ability to bring the TRICARE co-pays to the same 
level last year that they were established in 1995, which, you 
know--we do not.
    In other words, the force management needs are driven by 
recruiting and retention, and the money that we are spending on 
the educational benefit plus the other things we do appears to 
meet the force management needs of the Department.
    So the question of restoring a balance that happened to 
exist when the program was initiated is a different question 
that doesn't enter into the force management equation.
    Mr. McHugh. I would respectfully suggest you can get 
yourself in trouble talking about the logic of Congress on any 
level.
    Mr. Dominguez. Yes, sir.
    Mr. McHugh. But you did list it. I am not sure what your 
analysis of the logic of Congress in that denial last year was, 
but I was the chairman of this subcommittee at the time, and I 
can tell you what my thought process was, and that I totally 
objected to the Department beginning to find the necessary 
savings and restructuring of that program that was totally on 
the backs of the beneficiary.
    There wasn't a programmatic efficiency in that whole 
package. That was my problem.
    Mr. Dominguez. Yes, sir.
    Mr. McHugh. I don't know if that is the logic you 
associated with your analysis on restoring equity.
    But going back to my original question, I appreciate at 
least knowing that position.
    And, Mr. Chairman, I would tell you, I guess I understand 
the position of the secretary. This is a force management tool. 
I don't want to put words and thoughts in your head, Mr. 
Chairman, but I think for many of us on this side, yes, it is a 
force management tool, but there is also a challenge of what is 
the right thing to do by the men and women in the uniform.
    And I am not suggesting you don't care about that. But 
that, I think, is probably the bigger focus that we are going 
on right now.
    But let me go over to Mr. Wilson.
    Mr. Wilson, I heard your comments and your concerns. In 
fact, I believe you used the word ``opposing'' moving this 
program into Title 38. You talked about the money issues. Is 
that your big concern?
    Mr. Wilson. That is our big concern right now based on--we 
don't have a complete picture of what it is going to cost. 
Based on just a quick understanding of what it looks like it 
would do, the cost would be substantial.
    Mr. McHugh. Right. Okay. And that is fair. Let me ask you a 
quick question here. I am on the yellow light. You mentioned 
the kickers. Kickers are something right now DOD pays for.
    If we were able to structure a program that technically 
moved it over to 38 but retained responsibility for kickers and 
other more traditional DOD costs, would that lessen your 
opposition?
    Mr. Wilson. It would.
    Mr. McHugh. So much that you would absolutely embrace the 
bill?
    Mr. Wilson. No. I cannot say that, no.
    Mr. McHugh. I tried for you, Mr. Chairman.
    Mr. Wilson. It was a good try, though. [Laughter.]
    It was a good try, but no.
    Mr. McHugh. Strike the last part, and he said he would 
lessen the opposition. Maybe we can--thank you, Mr. Chairman. I 
yield back.
    Dr. Snyder. And thank you, Mr. McHugh.
    And that is an issue that--this is a complicated bill. We 
understand that. And we appreciate you all's comments. But that 
is a change that I think we are going to make with regard to 
the kickers, because I think it satisfies the needs that both 
of you expressed with regard to that, and it is actually not 
that difficult to do.
    It is probably more complicated to do it the way we have it 
in the original bill than the way that Mr. McHugh just 
suggested.
    So, Mr. Murphy.
    Mr. Murphy. Thank you, Mr. Chairman. I appreciate it.
    Secretary, I used to teach at your alma mater, West Point, 
and I know that you are an airborne soldier. I am from Fort 
Bragg, spent some time there, so I appreciate your service.
    And, Mr. Wilson, my father was in the Navy, and I 
appreciate your service of eight years in the Navy.
    With the wars in Iraq and Afghanistan, we have certainly 
asked a great deal from our Guard and Reserves, and they have 
performed magnificently. I think we can all agree that we owe 
them a debt of gratitude.
    My colleague, Congressman Matheson of Utah, has introduced 
a bill that deals with a critically important issue that I want 
to get both of your opinions on.
    Many Guardsmen and Reservists across the Nation have served 
a total of 24 months on active duty in Iraq and Afghanistan. 
But typically, they serve 24 months over multiple deployments. 
The current criteria for the Montgomery G.I. Bill eligibility 
only allows individuals who serve at least two years of 
continuous active duty service to qualify for the full active 
duty benefit.
    Congressman Matheson's bill would allow Reservists and 
Guardsmen who serve a total of 24 months over a 5-year period 
on active duty to qualify for the full active duty educational 
benefit.
    I personally think this is an excellent piece of 
legislation. I am proud to co-sponsor it. Would DOD or the V.A. 
object to such legislation?
    Mr. Dominguez. Sir, if I might, that is an intriguing idea. 
One of the challenges that we have--and Chairman Snyder 
actually mentioned this as well--we do need people to volunteer 
for service, and we need to move away from our reliance on 
mobilization, involuntary mobilization, as a tool to bring our 
citizen soldiers into the fight over a long war.
    And some innovation, some potential use of these benefits 
to try and incentivize that kind of behavior, you know, I think 
those are intriguing concepts. And that is an intriguing 
concept that you have described. We haven't had time to look at 
it, but it is certainly worth a dialogue.
    I guess I don't know the details, but equity in this case 
would also suggest that reserve members who meet that criteria 
would also have the pay reduction so that there would be an 
equivalent participation with the active who will also 
volunteer for a pay reduction in order to get the two-year 
eligibility.
    But those are intriguing ideas, as is the kicker that the 
chairman discussed and Congressman McHugh. These are things, 
you know, that give us space to work in.
    Mr. Murphy. So you don't object to it per se.
    Mr. Dominguez. I think it is an intriguing concept we 
should discuss and evaluate and work on.
    Mr. Murphy. Okay.
    Mr. Wilson.
    Mr. Wilson. The equity of the proposal--I definitely don't 
want to minimize the importance of that. Having said that, we 
would have the same concerns as my testimony talked about 
concerning other issues, concerning the cost of those type of 
things.
    The equity is absolutely important, but without knowing the 
details--certainly, the devil is in the details of something 
like that.
    Without knowing the details of how that would impact both 
the active duty and the reserve as well as the costing of that 
type of proposal, we would be opposed to it until we knew more 
about it.
    Having said that, we would certainly be more than happy to 
work with the subcommittee to work out the details of that.
    Mr. Murphy. If I got you a copy of that bill and some of 
the announcements on it, do you think you could give me a 
written response from each of your departments within a few 
weeks, say March 30th?
    Mr. Dominguez. I think we will try as diligently as we can, 
but I can't, you know, promise to turn it--we do work the 
questions for the record really pretty hard, because we 
understand the mark-up schedule of this committee.
    Mr. Murphy. You know, again, I was in the military, and 
eight weeks in this job, and we are a Nation at war. We need to 
act with a sense of urgency. So I would appreciate it if you 
can get back to me a written response whether or not it is an 
option--your cost-benefit analysis of it.
    Mr. Dominguez. Sure.
    Mr. Wilson. Understood.
    Mr. Murphy. Thank you.
    Dr. Snyder. Ms. Shea-Porter.
    Ms. Shea-Porter. Thank you.
    And thank you for being here.
    I was a military spouse, and I can remember hearing the 
expression that nothing is too good for the military. And when 
I look at this, I sometimes have the feeling that we are 
missing our men and women in uniform, and what they have given 
to us.
    And specifically, I would like to talk about this because 
of the National Guard. They have been called upon, just like 
our other soldiers, to serve in the same dangerous conditions. 
They have sacrificed and, in some ways, more so, because those 
who are active duty are employed by the military. The military 
completely understands them.
    If you have the National Guard, and they leave their jobs, 
they have trouble coming back to it. We know this is true, and 
that there has been a lot of difficulty in the communities 
reabsorbing people. In spite of the law, there is still a big 
misunderstanding about what their role is when they come back.
    Also, I see a lot of recruiting information from the 
National Guard, and they always highlight the education that is 
available. And indeed, a lot of people have taken advantage of 
the National Guard because it is that boost up.
    So now we are looking at these soldiers who have gone and 
done their duty beautifully, often under more difficult 
circumstances in their community in their return, and then we 
change the--we make it so they don't get exactly the same 
benefit, the same amount of time that others have.
    And there is just something fundamentally unfair about 
this.
    I am also very concerned that it is in the DOD instead of 
the V.A. As a former social worker, I look at all these 
programs, and I have to tell you, I am pretty good, but it is 
hard to find, you know, exactly the connections.
    And I am very certain that the National Guardsmen who are 
looking at this are having some trouble also figuring out where 
to go and how to collect what is due them.
    So I guess my only question here is if we have these 
soldiers, and they are serving--and you talked about the 
recruitment and the retaining, and I understand that.
    But how can we look at these troops, who have given so 
much, and tell them that their experience was different and 
therefore their benefits are going to be different?
    Mr. Dominguez. Ma'am, if I could take a shot at answering 
that, REAP is a very, very good program. It was designed and 
enacted by this Congress to deal specifically with that issue.
    The MGIB for the active requires two years of continuous 
service before you get, you know, item number one in terms of 
the benefit. And that applies as well to the, you know, 
Guardsmen and Reservists. As I said, if they serve two years 
continuous on active service, then they are entitled to that 
program as well.
    Now, if they served a proportion of that, let's say one 
year, all right? That is half of the basic active duty service 
commitment. Under REAP, they are entitled to 60 percent of the 
3-year rates that the active is entitled to.
    So in terms of proportionality, REAP has tried to address 
the issue you have raised by structuring a tiered program--90 
days of service, 1 year of service, 2 years of service--in a 
way that applies a proportionality relative to the 2-year 
minimum service obligation that the actives have under the 
MGIB.
    And so you actually are better off in REAP in terms of the 
months that you have served toward that two-year obligation. 
You get a richer benefit proportionally.
    Ms. Shea-Porter. But in order to utilize those benefits, 
you need to be still involved. And with these multiple 
deployments, they are not able to take advantage of them.
    You cannot be studying and also be fighting for our 
country. So I am concerned that they lose those benefits.
    Mr. Dominguez. Well, ma'am, one of the things that I would 
myself suggest that we look at is the delimiting date, you 
know, the 14 years in, it expires. And that is something that I 
think we clearly need to think about chucking over the side.
    But the multiple deployments, 12 percent so far--now, that 
number is going to change, but only 12 percent of the members 
of the reserve component have deployed more than once. And only 
47 percent of them have been mobilized at all at this current--
--
    Ms. Shea-Porter. I just want to say, talking about 
percentages does not negate the impact on the individual 
soldier. And I think each individual going in there is not 
particularly concerned about whether this will apply to 12 
percent or 80 percent. They are interested in how this applies 
to them.
    Mr. Dominguez. Yes, ma'am, and again, I want to say that 
the Secretary in his first major policy pronouncement of his 
tenure chose to speak on the utilization of the Guard and 
Reserve and set clear, unambiguous policy parameters around 
that, to set clearly the expectation of service, and to clearly 
put the military services on a path to planned, predictable use 
of Guardsmen and Reservists so that they can take advantage of 
these benefits, because you are correct, as the chairman was.
    You know, you can't do this while you are fighting in 
combat, and you don't have, you know, Internet access and the 
luxury of time and all that kind of thing.
    Ms. Shea-Porter. Thank you.
    And my final comment about it is that I have been talking 
to National Guard and I know that they are having difficulty 
with their recruitment. And I think that we need to look at 
everything and figure out why. And I am pretty sure that----
    Mr. Dominguez. Yes, ma'am.
    Ms. Shea-Porter [continuing]. This may not be the number-
one issue, but it certainly has to factor in.
    Mr. Dominguez. Yes, ma'am. This is an important recruiting 
tool, absolutely, and particularly for young people. They value 
it a great deal. And there is no doubt in my mind that an 
increase in this benefit would benefit recruiting. It is 
unclear how much.
    I do want to say that Lieutenant General Blum and adjutants 
general have just done a superb job in turning around the 
recruiting in the National Guard. They are hitting their 
numbers, and they are doing it with quality young men and women 
that we are all proud of.
    And so I want to compliment him for that achievement.
    Ms. Shea-Porter. Thank you.
    Thank you, Mr. Chairman.
    Dr. Snyder. Thank you.
    We will start our second round here, if we could.
    You know, you have talked about retention. We have talked 
about recruitment. Clearly, to me, it seems what our bill is 
heading for and what the Congress, which I think as a whole, is 
heading for is something that would help your recruitment. I 
think my bill would help recruitment, and we can debate about 
the retention issue.
    I think clearly, in Mr. Wilson's words, our approach would 
help readjustment for people coming out of the reserve 
component. I have mentioned it before, but I have two employees 
who are Iraq war veterans, both reserve component. One stayed 
in the Reserves. One is not.
    The one who is not inquired the other day about why don't I 
get an educational benefit. He would like to go to graduate 
school. Well, because the way the law is written. So this issue 
of readjustment that Mr. Wilson talked about I think is very 
real.
    And then the issue that I think you acknowledged, Mr. 
Secretary, this idea of volunteering for mobilization, it may 
well be that our bill would help.
    But the fifth criteria is the one that I wanted to get your 
response to, maybe from both of you, but particularly, Mr. 
Dominguez. This involves your side. And it is one that we 
mentioned before, and Ms. Shea-Porter mentioned.
    It is this issue of fairness. You know, when you are 
talking about people who are in the reserve component, who may 
be taking advantage of their program, and they are in school, 
and they get their mobilization, and they leave the school.
    My guess is that, you know, Secretary Rumsfeld and 
Secretary Gates, I don't expect them to sit down and see what 
the end of terms and the beginning of the next terms are to do 
their mobilization order. Of course they don't do that.
    And so they get pulled out of school, a lot of them. That 
has occurred. Their education is disrupted. They have that time 
in mobilization. They lose their benefit during that time, 
practically, because they are overseas.
    And I need a response specifically--I understand your 
discussions of retention, and you think it is a force 
management tool. Mr. McHugh brought this issue up, too. How is 
this fair?
    How is it fair now that people are being mobilized for 18 
months and 22 months, and being kept longer, and they come 
back, and their enlistment is winding down, and they decide not 
to re-enlist, they get no educational benefit? How is that 
fair?
    Mr. Dominguez. Sir, I think we partially addressed this 
concern in the legislative proposal that I referenced in my 
opening comments with REAP and the change that we suggested 
where a member could move into the individual ready reserve, so 
that is out of the selected reserve. You are not a drilling 
reservist.
    You know, we want to encourage you to remain a drilling 
reservist in the selected reserve, but you can move into the 
IRR and continue--let me back up. That allows you to retain 
eligibility, but the legislative proposal that we turned in 
wouldn't allow you to begin using it until you were a drilling 
reserve, again trying to keep the retention benefit of it.
    Dr. Snyder. We will be glad to take a look at your 
proposal.
    Mr. Dominguez. Yes, sir.
    Dr. Snyder. But I don't think it gets at the basic issue of 
fairness as I described it.
    Mr. Dominguez. Right.
    Dr. Snyder. And I think that is why there is just unanimous 
agreement, I think, among the veterans service organizations 
that our approach is the right one. It is just not fair. And 
you all are just, I think, struggling to make a case that it is 
fair, and I don't think you can do it. I would not want to try 
to make that defense.
    I want to get to this issue, Mr. Wilson, that neither one 
of you talked about in your opening statements, either written 
or oral.
    What is the current status of the relationship, which I 
think may be informal or some kind of formal relationship, 
between DOD and V.A. that came about in the 1992, 1993 
framework in which the V.A. is paying some benefit based on 
some kind of agreement. I understand there is disagreement 
between the V.A. and the DOD about whether there is statutory 
authorization to do what you are doing.
    What is the status of that? Would you describe it for the 
committee? How many people are currently taking advantage of 
it? Is there a disagreement? I would like to hear from both of 
you on that.
    Mr. Wilson. I would be happy to address that. The short 
answer is there is no current disagreement, and I will go into 
a little bit more background on that.
    The current method in which we pay this benefit is based on 
public law that was enacted immediately following the first 
Gulf War. I believe 1993 was when the statute went into place.
    There wasn't an agreement as one would think of in terms of 
administering this. We followed the standard procedures and 
implemented regulations upon which DOD agreed to administer 
payment of this benefit.
    And what this statute allowed was that for a Guard 
Reservist who was called up for contingency operations and was 
eligible for 1606 benefits, their delimiting date would be 
extended for the amount of time that they were activated plus 
four months.
    And the way this was implemented under the regulations 
was--and our understanding of the intent of the legislation 
was, that this delimiting date would be extended irregardless 
of the drilling status of the individual.
    So you would have situations at that time--very, very few, 
but you would have situations where individuals would have a 
length of time normally equal to about 16 months--if they are 
activated for a year, the 12 months plus the 4 months--
immediately following separation from the Guard Reserve in 
which they could use 1606 benefits.
    It did not create portability as the term is being used 
around town now. What it did do was allow an immediate short-
term window in which individuals could use their 1606 benefits 
following their severing their relationship with the Guard 
Reserve.
    We have paid about 3,500 claims under this, obviously, the 
majority of them in the last several years after 9/11. We have 
been paying the benefit for 15 years or so.
    The discussions that were occurring between DOD and V.A. 
attorneys were among a group of people who did not have 
institutional knowledge of what existed and why it existed 
going back to 1992. So those discussions went on for a length 
of time.
    But there is agreement now between DOD and V.A. that the 
method in which we have been administering this program since 
the early 1990's is the correct method. And there is no 
disagreement on that.
    Dr. Snyder. Do you have any comment, Mr. Dominguez?
    Mr. Dominguez. No, sir.
    Dr. Snyder. Mr. McHugh.
    Mr. McHugh. Thank you, Mr. Chairman.
    I wasn't here in 1985, so whatever good happened I can't 
claim and whatever bad happened I can't be held too responsible 
for. But maybe you can help me understand.
    Explain the congressional logic, if you will, Mr. 
Secretary--what is the rationale behind the $1,200 payment to 
participate in MGIB?
    Mr. Dominguez. The reduction in salary, or the reduction in 
pay to participate. I also may have been here in 1985, but I 
wasn't engaged in this area of policy, so I actually don't have 
the institutional knowledge on the rationale.
    Mr. McHugh. Okay. You haven't heard recently? Nobody said 
boy, that $1,200 is good because----
    Mr. Dominguez. No, sir. I don't recall. I would take that 
for the record. I would get you that.
    [The information referred to can be found in the Appendix 
beginning on page 95.]
    Mr. McHugh. Okay. I wish you would.
    Mr. Dominguez. Yes, sir.
    Mr. McHugh. So I suspect you can't officially respond to a 
question that I might ask you--what would DOD's response be to 
a proposal to end the $1,200--I call it a payment. You call it 
a reduction in pay.
    Mr. Dominguez. Right.
    Mr. McHugh. Potato, potato.
    Mr. Dominguez. Yes. I think we would have to study that, 
Congressman. You know, clearly, there is a fiscal consequence 
to the Department, as you are completely aware of, because of 
the work you do here in the authorization----
    Mr. McHugh. Well, I understand the money. I mean, you know, 
if you could self-fund the whole program, that would be 
wonderful, I guess, from a budgetary perspective, for the 
Department.
    But I would like to think--and maybe I am being a little 
bit too Pollyannaish here, but I would like to think there was 
some kind of programmatic reason for it other than a budgetary 
one. I may be totally off base here.
    Mr. Dominguez. Sir, I think, you know----
    Mr. McHugh. If so, if I may, just so you can--and if so, 
that was in 1985? If it was a budgetary issue, should we update 
that, too? Maybe it ought to be $2,400.
    Mr. Dominguez. No, sir. We are not----
    Mr. McHugh. I am not proposing that. I am proposing----
    Mr. Dominguez. No, nor am I.
    Mr. McHugh [continuing]. We consider going the other way. 
But I mean, you know, we talked about----
    Mr. Dominguez. Right. You know, I think, as I was 
reflecting on this--you know, this came out and replaced the 
Voluntary Education Program (VEP). And the VEP was a program 
where you had to put cash in and the government would match it.
    But basically, it was a statement that says look, we are 
doing this for people who value education, and who want to put 
some skin in the game. And so I believe that is where that came 
from.
    It is very similar to the VEP benefit, where you had to put 
the skin in the game in order for the government to put any in. 
So I think that is where that came from.
    You know, there is every force management reason not to 
increase that $1,200 pay reduction.
    Mr. McHugh. Well, is there a force management reason to 
decrease it?
    Mr. Dominguez. Again, you know, in terms of surveys of the 
force, you know, ``what are you concerned about, what bothers 
you, what can we do better for you?'' This is not a high one on 
the list when we go out and connect with people. There may be a 
reason, sir, and there may be a benefit.
    Mr. McHugh. Okay. Speaking of skin in the game, right now 
an active force member participating in MGIB can self-fund 
their kickers. It doesn't have to be a departmental enriched 
kicker, paid-for kicker. They can put their own money in. But 
reservists cannot.
    Would the Department have objections to allowing reservists 
to self-fund their own kickers, to put skin in the game, using 
more skin in the game?
    Mr. Dominguez. Offhand, I can't think of a compelling 
reason why we wouldn't want to encourage our men and women----
    Mr. McHugh. Do you want to take----
    Mr. Dominguez [continuing]. You know, to invest----
    Mr. McHugh [continuing]. A look at that, too, though?
    Mr. Dominguez [continuing]. In their educations.
    Mr. McHugh. I don't want to----
    Mr. Dominguez. Yes, sir. I think we should. That is also an 
intriguing concept.
    Mr. McHugh. Okay. Thank you.
    I heard Mr. Wilson say that the V.A. had not yet costed out 
these proposals. Has the Department had an opportunity to do 
that? You may have said that.
    Mr. Dominguez. Not the legislation that has been 
introduced, no, sir.
    Mr. McHugh. Are you intending to do that? I know the 
chairman has asked for a Congressional Budget Office (CBO) 
analysis, but--or would you rely on CBO?
    Mr. Dominguez. Well, sir, I think we will provide the 
committee whatever help that you require on this, and if you 
would like our assistance, we would be happy to offer it.
    Mr. McHugh. I think the chairman would like your support. 
If that helps you support the bill, then by all means. If not, 
then, you know, go find something else to do, probably. But all 
right. Thank you.
    I appreciate it, Mr. Chairman.
    Dr. Snyder. Mr. Murphy.
    Mr. Murphy. Thank you, Mr. Chairman.
    Kind of going along what Congressman McHugh was--back in 
1994, Fort Knox, Kentucky, asked if I wanted to sign up for the 
G.I. bill. I had five days to sign up or not at that point.
    Many of my fellow soldiers were hesitant to spend the 
$1,200 out of their meager salary, and my colleague on this 
subcommittee, Ms. Davis, has introduced a bill to help 
alleviate some of the cost to the soldiers who are not, in my 
opinion, paid nearly enough to serve in our military.
    I am also proud to co-sponsor that bill, because I saw with 
my own eyes how much of a deterrent this $1,200 to get skin in 
the game was to people to get the benefits of the G.I. bill.
    In my opinion, we should be encouraging soldiers to enroll 
in this great program and not the other way around.
    So my question is why are we forcing the recruits to pay 
the money up front and out of pocket to participate in this 
program. Has the DOD thought of any alternatives that would not 
discourage soldiers from enrolling in this program?
    And you know, I am assuming that you are intrigued by Ms. 
Davis's bill, and I would ask for a written response as well 
within 30 days, if you could both look at it. Do you have any 
objections to giving a response to Ms. Davis's bill and doing a 
cost-benefit analysis of that?
    Mr. Dominguez. Well, I don't know how much detailed cost-
benefit analysis--but we can look at it and give you a response 
in 30 days, absolutely, Congressman.
    Mr. Murphy. Okay. Thank you.
    Mr. Dominguez. I do want to point out, though--I guess it 
was Congressman McHugh who mentioned on the active duty side 
now, the take rate of people participating in the G.I. bill is 
really quite extraordinary and rewarding. It could be better, 
but it does not appear to be the deterrent it was, and that may 
be the result of the Congress' support of the salary increases 
over the last decade.
    Mr. Murphy. Well, I have got another thing that I am 
hopeful you will be intrigued about as well. My brother is a 
captain in the Air Force Reserve, my brother J.J. And he had 
entered the service after he already had his college degree and 
his master's degree.
    And he had to take out thousands of dollars in student 
loans to pay for both these degrees. It is my understanding 
under the current policy my brother would be able to use G.I. 
benefit to also obtain an additional degree, but the military 
will not assist him in paying down his educational debts that 
he incurred prior to his service.
    It seems to me that we ought to be encouraging the best and 
the brightest and the most highly trained and educated people 
to join our military, so how about doing it retroactively--you 
know, applying the G.I. benefit bills to student loans already 
incurred, to encourage the best and brightest to serve our 
country? Has that been looked at?
    Mr. Wilson. We administer one very small program, National 
Call to Service Program, which does have provisions to pay back 
a limited amount of debt in exchange for a normal enlistment 
time into the military.
    I can give you details. I can provide details in writing on 
that program. It is one of our smaller programs, but there is 
something in place that does address that issue, to a degree.
    Mr. Murphy. Is that just for the enlisted or is it for 
officers as well?
    Mr. Wilson. I would have to look at the specifics. I can't 
answer that. But I will find out.
    Mr. Murphy. I know you said small, Mr. Wilson. How small? 
Do you know that?
    Mr. Wilson. I will verify this, but I want to say it is up 
to $5,000 in student loans that we can repay.
    Mr. Dominguez. Sir, I will have to check in the DOD, but I 
believe we have an educational loan repayment program for--
again, it is for members of the selected reserve who commit to 
continued service in the selected reserve. And I believe we 
will pay loans back.
    I don't know the details and how much, you know, and who is 
eligible and things, but we certainly can look at that for you.
    Mr. Murphy. As well as the idea about, generally speaking, 
retroactively paying this?
    Mr. Dominguez. Again, I think in the details--I will look 
at those, but if you show up, and you have an educational loan, 
and you want to sign up in the selected reserve, I believe we 
can pay the loan so long as you agree to, you know, drilling 
status with that unit. I will check the details for you, sir.
    Mr. Murphy. Thank you.
    Thanks, Mr. Chairman. I appreciate it.
    Dr. Snyder. Mr. Murphy, I want to assure you that 
everything you say is intriguing.
    Was Mr. Dominguez one of your students at West Point? I 
guess not.
    Mr. Murphy. No.
    Dr. Snyder. I thought I would ask.
    Let's see. Mr. Wilson wants to wait a minute before we 
recognize him, so we will go another round here.
    Mr. Dominguez, you agree with Mr. Wilson's description, 
which is consistent with what I have heard, too, about the 
current working relationship between the DOD and the V.A.
    Now, I didn't hear you express concerns about retention, 
though, because we have that benefit that extends after getting 
out of the service.
    Mr. Dominguez. Yes, sir.
    Dr. Snyder. Do I detect an inconsistency in your argument 
there? You are not advocating we get rid of that working 
relationship there so that it would help retention, are you?
    Mr. Dominguez. That provision has been in place, as Mr. 
Wilson has said, since the gulf war. And even with that 
provision, retention in the selected reserve is at all-time 
highs, even while that reserve force is engaged in combat.
    Dr. Snyder. My point is it is hard to do this kind of 
analysis and say retention rates are good because of specific 
provisions like this. I agreed about the 14-year clock. It 
doesn't make sense to me.
    I guess people are thinking in terms of tenure, 
portability, and 14-year clocks and so on at the time that 
these programs are written, which is--there is kind of this 
sense of, ``Gee, we have got to get people in there and get 
their education so they can help themselves.''
    It is kind of like you have got to get moving. And now we 
recognize that it is not uncommon at all for people in their 
late 40's and 50's to have to go back or choose--not have to, 
but want to go back for additional upgrades in education.
    So I think we could make an argument none of those kinds of 
things make much sense, recognizing there is a dollar cost to 
those.
    In terms of the problem that we have here--because, Mr. 
Dominguez, as I indicated earlier, you really described the 
problems well, I think, some of the problems that we have with 
our current system.
    You specifically mentioned the increasing costs of higher 
education and how the benefit has not kept up with that. You 
talk about the $13 billion shortfall just to get the reserve 
component benefit up to the same relationship as it was.
    And one of the problems that we had was not just the 
resistance of DOD several years ago when we did that. It is our 
committee structure because of these different sections of the 
code.
    And if we can fix the kicker problem, and not have DOD 
paying for bills that--you know, they don't have much input 
over the Veterans' Affairs Committee. Would you have a problem 
with us doing this statutory change to get it under the same 
committee so that we don't leave our reserve component high and 
dry any time we deal with these benefits? Do you get my drift?
    Mr. Dominguez. Yes, sir.
    Dr. Snyder. I am isolating out that one issue, because I 
recognize that these others have costs to them and all, but 
this one issue--it just seems inherently unfair what we did 
several years ago, but we did it because that was all we could 
get done----
    Mr. Dominguez. Yes, sir.
    Dr. Snyder [continuing]. Because of DOD resistance.
    Mr. Dominguez. I think one question we have to ask 
ourselves is whether when the Congress enacted the--and I don't 
know the answer to this--when it enacted these provisions back 
in 1985, whether they established that the MGIB-SR would be 47 
percent of the active, or that was deduced afterwards by virtue 
of the rate that the Congress enacted.
    Dr. Snyder. No, we are the Congress now, Mr. Dominguez.
    Mr. Dominguez. Sir?
    Dr. Snyder. We are the Congress now.
    Mr. Dominguez. Yes, indeed, you are, sir. So again, my 
point is I am not driven by the fact that there was a 
relationship between the two of them. I think about it more 
much in terms of how much is enough to inspire people to join 
us and for them to say, ``Yeah, that is a good deal. I will 
take it.''
    Now, to your question, we really do need to stay in charge, 
and this committee and the DOD have dialogue about the 
kickers--that this is where that dialogue needs to happen.
    Dr. Snyder. And I think that is something we can work on.
    Mr. Dominguez. Yes, sir. Right now, the reserve benefits 
are not transition benefits. By making them transition benefits 
and entitlements, we are going to create some mandatory 
spending. So that is a thing we have to think about and work 
through.
    Dr. Snyder. We need to see the CBO score on that specific 
component of it.
    Mr. Dominguez. Yes, sir. And the next thing that we need to 
think about is will it cost us more to have the same reserve 
force, you know, that we have now under that proposal. And 
there may be important reasons that make that okay.
    Dr. Snyder. Recruitment, readjustment, fairness.
    Mr. Dominguez. Yes, sir.
    Dr. Snyder. Mr. McHugh.
    Mr. McHugh. Thank you, Mr. Chairman.
    Mr. Secretary, in your testimony, you mention about the 
initiative under way with respect to a total force G.I. bill.
    Mr. Dominguez. Yes, sir.
    Mr. McHugh. And you spoke about the working group came and, 
as I read your testimony, had a set of proposals that, again, 
as I interpret your testimony, sounded as though, in your view, 
they cost a little bit too much, and the committee was 
redirected to come back with a cost neutral alternative, which 
I assume they are working on.
    So number one, could you talk to the components of the 
original proposal that you felt were too costly? And number 
two, when would you expect the second iteration of the joint 
task force work to be completed?
    Mr. Dominguez. I will introduce it, but I think actually 
Keith is much more knowledgeable about this.
    Mr. McHugh. Okay, whomever feels----
    Mr. Dominguez. But this working group was working on this 
exact issue that the chairman has challenged us with, which is 
how do you create a transition benefit to deal with this equity 
issue, but without taking away one of the important tools we 
have for retention in the selected reserve.
    And so they were working that, came up with some ideas on 
that, but the--when it was presented to the Joint Executive 
Council, the cost consequences of that were not neutral, and so 
they were sent back to the drawing board.
    I think I have captured that right, Keith, and if you want 
to----
    Mr. McHugh. Before Mr. Wilson adds his comments, do you 
know what--they weren't neutral, but do you know what the costs 
were?
    Mr. Dominguez. I think, again, Keith is the expert here on 
that.
    Mr. McHugh. Okay.
    Mr. Wilson. I don't have the exact costs. I can give you a 
little bit starting from the very beginning.
    The original proposal for a total force came from the 
Veterans Advisory Committee on Education, who is a standing 
chartered committee that provides assistance to the Secretary 
on how we can best meet the needs of veterans and service 
members education-wise.
    The total force proposal as it was submitted to us involved 
structural changes, bringing everything required for the 
programs into Title 38. It called for three tiers of benefit 
based on the amount of active service an individual would have, 
irregardless of Reserve, Guard, or active duty.
    But it also addressed issues that weren't necessarily 
germane to a total force structure. For example, the 
recommendation was to bring the equivalent, under the new 
program--of the 1606 program to a higher percentage than 
currently exists for what would be the current Chapter 30 
program.
    So there was built into the proposal--there was automatic 
cost increases separate from the structure itself. So when the 
working group took the proposal as a whole, it took the entire 
proposal at face value and moved forward.
    The working group liked some of the ideas that were in the 
proposal, and I will use the word intriguing. They were 
intrigued about some of the ideas in the proposal. But there 
was concern about that costing mechanism specifically.
    In addition, the total force proposal as it was presented 
was silent on some very key issues. For example, it did not 
address how the current $1,200 pay reduction would be handled 
under a program that integrates all three of the current 
programs, which, as you are aware, active duty individuals do 
have the pay reduction. The current Guard Reserve do not.
    So there were some sticky issues, and they are continuing 
to work on how all of those ideas would end up costing out.
    Mr. McHugh. As I understand, they have been looking at this 
since, what, 1995? Is that right?
    Mr. Wilson. No. They have been working since 2005.
    Mr. McHugh. 2005.
    Mr. Wilson. Roughly 1.5 years, I believe.
    Mr. McHugh. Yes, I lost a decade there. I wish I could. 
2005.
    But do you have or do they have a time frame on them as to 
when they are expected generally to come back with the next 
proposal?
    Mr. Wilson. At this point, we are still working on a time 
frame to get the requested information back to the JEC, the 
Joint Executive Council.
    The costing issues, as well as getting a better 
understanding of what their alternative proposals would do to 
the core issue of recruitment and retention, is the issue that 
the group is grappling with right now.
    I can find out the exact current status or whether we have 
a time frame. My understanding is we do not.
    Mr. McHugh. Well, the reason, Mr. Chairman--obviously, it 
would be of some interest if it could dovetail into what you 
and others are trying to do.
    I see the red light is on, so, again, gentlemen, thank you 
for being here. And thank you for your service to our men and 
women in uniform, active, Guard, retired, Reserve--deeply 
appreciate that.
    Thank you, Mr. Chairman.
    Dr. Snyder. Mr. Joe Wilson.
    Mr. Wilson of South Carolina. Thank you, Mr. Chairman. In 
lieu, really, of questions, I just want to thank the chairman, 
also the ranking member, for this hearing and, in particular, 
the call for greater parity in compensation and benefit 
programs between reservists and active duty personnel.
    I am very pleased that the unit that I was a member of, the 
218 Mechanized Infantry Brigade, is currently in training at 
Camp Shelby and Fort Riley for deployment to Afghanistan. And I 
have identified with our Guard members who have served overseas 
in the past five years, and how proud I am of their service.
    But particularly with my now former unit going, I know that 
the difference between Guard members, Reservists and active 
duty has become so blurred that, indeed, I feel like the 
benefits should be equally similar in terms of service.
    And thank you very much for your service. And again, I 
appreciate the efforts being expressed here today.
    Dr. Snyder. Thank you, Mr. Wilson.
    I think we are about winding down here, Mr. Secretary. One 
specific question, Mr. Dominguez. Help me get my facts 
straight. We have talked about the person who activated for 24 
consecutive months and then getting the benefit they do.
    Am I correct, they do have to pay the $1,200?
    Mr. Dominguez. Yes.
    Dr. Snyder. They do.
    Mr. Dominguez. Yes.
    Dr. Snyder. And if you do your calculation, is your 
calculation the $860 a month benefit in which you call it a 
richer benefit--does that take into consideration the $1,200 
that they then have to pay at that time?
    Mr. Dominguez. Yes. Yes. When you compare the REAP benefit, 
is that where you----
    Dr. Snyder. Right. I just want to make sure----
    Mr. Dominguez. Yes, you have to take that in consideration.
    Dr. Snyder. And it get back to Ms. Shea-Porter's question, 
of course, which is the difference being that they have to stay 
in----
    Mr. Dominguez. In the selected reserve.
    Dr. Snyder [continuing]. The service subject to 
mobilization and drill and everything else.
    Mr. Dominguez. Right.
    Dr. Snyder. You know, we have talked about the fairness, 
and I don't know if you and I disagree on that or not, but it 
just seems to me incredibly unfair.
    And I think what drives this sense of unfairness that a lot 
of us have now is I don't think most people re-enlist for the 
educational benefit or gee, they have got--you know, they 
really love their friends down there once a month they go down 
and drill with.
    I think they are re-enlisting in a time of war because they 
are military men and women, and they love their country, and 
they just think it is important.
    And we have had testimony at that table from the highest 
ranking civilian and uniformed people in our country who talk 
about the incredibly high retention rates, surprisingly high 
retention rates, that occur while people are on duty overseas.
    So I think we can overplay our statements about the impact 
of an educational program on retention. I think it gets back to 
this--in my view, this sense of fairness.
    I also think we talk about their readjustment, in Mr. 
Wilson's words, the readjustment component. And that has to do 
with individuals.
    But as I am sure you know, I mean, a lot of people feel 
that the G.I. bill in the post-World War II era is what built 
the American middle class and made us what we are today.
    And in fact, Senator Webb has filed a bill that I suspect 
is exorbitantly expensive, but it takes a back to what the bill 
was, which is if you get into a college, you all--we all as 
taxpayers will pay the tuition of that college.
    If it is Pulaski Technical College in Little Rock, we will 
pay that tuition. If it is Yale or Harvard, we will pay that 
tuition, plus a stipend, which gets back to not just the 
readjustment for that individual, but the tremendous impact 
that men and women coming out of uniform into American 
society--the tremendous impact, positive impact--armed with the 
educational tools they think they need, at the place they think 
they need to go to--the impact that they can have on our 
society at large and have for decades, coming out of World War 
II.
    One final question. Mr. Wilson, do you have a sense yet, 
knowing our process and our year moves along fairly rapidly--do 
you have a sense of the general outline of what the V.A.-DOD 
working group's findings are going to be that you might share 
with us today?
    Mr. Wilson. I can provide a very limited thumbnail sketch. 
The costing I cannot address at all, obviously.
    Dr. Snyder. I understand. Okay.
    Mr. Wilson. There is general agreement that there are 
components of the separate programs that can be combined into 
an integrated program that would provide a better degree of 
what we are all calling here equity. And it can be done in a 
manner that would make the program easier to use for the 
participants.
    And I believe, as somebody responsible for Administration 
of the program, equity and complexity of the program are almost 
two sides of the same coin.
    It can be a confusing world for our program participants, 
and the advantages of eliminating some of the equity issues by 
making the programs easier to understand and easier for the 
people to use is something that the working group, I believe, 
believes we can capitalize on.
    The working group likes the idea as well of a three-tier-
type approach in terms of, again, equity, recognizing and 
providing a benefit commensurate to the amount of service that 
an individual has provided. I don't believe there is any 
disagreement on that issue as well.
    There continues to be issues concerning the impact on 
recruitment and retention and the costing figures. A particular 
issue is addressing things like the current $1,200 pay 
reduction and how that would be handled under an integrated 
program.
    So the fundamental approach of the proposal, in terms of a 
tiered structure that offers benefits commensurate to amount of 
service the working group, is in agreement.
    Again, as I mentioned earlier, the devil is in the details. 
And those are the things that they are working through.
    Dr. Snyder. Mr. McHugh, anything further?
    Mr. Wilson, anything further?
    We appreciate you all being here.
    And I encourage you, if you have thoughts or are working 
with people that have thoughts about this specific bill or 
other aspects of these bills, to let us know, because I think 
there is a lot of interest in both the House and the Senate in 
addressing this issue as expeditiously as we can, because we 
think we have got some challenges out there that are terribly 
unfair to a lot of men and women in the United States today.
    The hearing is adjourned.
    [Whereupon, at 3:45 p.m., the subcommittee was adjourned.]

=======================================================================




                            A P P E N D I X

                           February 28, 2007

=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                           February 28, 2007

=======================================================================



[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]

=======================================================================


                   DOCUMENTS SUBMITTED FOR THE RECORD

                           February 28, 2007

=======================================================================



[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]

=======================================================================


             QUESTIONS AND ANSWERS SUBMITTED FOR THE RECORD

                           February 28, 2007

=======================================================================

      
                   QUESTIONS SUBMITTED BY MR. MCHUGH

    Mr. McHugh. Explain the congressional logic, if you will, Mr. 
Secretary--what is the rationale behind the $1,200 payment to 
participate in MGIB?
    Mr. Dominguez. The Department is able to respond with a partial 
history of the introduction of the $1,200 pay reduction required to 
remain enrolled in the Montgomery GI Bill (MGIB). The pay reduction was 
not included in House Resolution 1400, Chairman Montgomery's original 
bill. It was introduced in the version agreed to by the Senate and 
included in Public Law (P.L.) 98-525, the National Defense 
Authorization Act for Fiscal Year 1985, when the MGIB was established 
as a three-year test. It remained as a requirement when the MGIB was 
made permanent in P.L. 100-48. The pay reduction is codified in Section 
3011(b) Title 38, United States Code, which states, ``The basic pay of 
any individual . . . . shall be reduced by $100 for each of the first 
12 months that such individual is entitled to such pay.'' It further 
states, ``Any amount by which the basic pay of an individual is reduced 
shall revert to the treasury and shall not, for any purposes of any 
Federal law, be considered to have been received by or be within the 
control of such individual.'' As a result of this, the $1,200 reduction 
is pre-tax and pre-Federal Insurance Contributions Act tax.
    However, with more than 95 percent of new enlisted Service members 
choosing to enroll in the MGIB, the current pay reduction does not 
appear to be a major disincentive for participation in the program. 
While eliminating the $1,200 reduction in pay would be tantamount to a 
``pay raise'' for our most junior Service members, at a time when they 
could best use it, it also represents a very sound investment for them. 
The $1,200 investment can return over $37,000 in educational benefits 
to those members. The cost of eliminating this pay reduction would be 
significant, estimated at about $204 million annually, and would have a 
significant impact on the budget of the Department of Veterans Affairs. 
Therefore, Department of Defense would defer to that agency on the 
viability of eliminating the pay reduction.
    Mr. McHugh. Right now an active force member participating in MGIB 
can self-fund their kickers. It doesn't have to be a departmental 
enriched kicker, paid-for kicker. They can put their own money in. But 
reservists cannot.
    Would the department have objections to allowing reservists to 
self-fund their own kickers, to put skin in the game, using more skin 
in the game?
    Mr. Dominguez. House Resolution 100 would subtract the $1,200 pay 
reduction from a veteran's Montgomery GI Bill benefit in the first year 
of use in calculating eligibility for federal student aid. The 
Department supports this concept; however, as this provision affects 
Department of Education funding, the Department defers to that agency's 
views.
    Mr. McHugh. Do you have or do they have a time frame on them as to 
when they are expected generally to come back with the next proposal?
    Mr. Wilson. The Veterans Advisory Committee on Education (VACOE) 
submitted a ``Total Force GI Bill Concept'' proposal as one of their 
recommendations to Secretary Nicholson. Subsequently, the VA/DoD Joint 
Executive Council (JEC) requested that a joint DOD/VA working group be 
formed to analyze the VACOE proposal. The working group found many 
attractive elements in the VACOE proposal and prepared an alternative 
proposal. The working group briefed the JEC in May 2007, regarding 
their final report, and also released the final report to the VACOE. 
The Chairman of the VACOE furnished copies of the working group's 
alternative proposal to House and Senate Veterans Affairs Committee 
staff members in May 2007.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. MURPHY
    Mr. Murphy. My colleague, Congressman Matheson of Utah, has 
introduced a bill that deals with a critically important issue that I 
want to get both of your opinions on.
    Many Guardsmen and Reservists across the Nation have served a total 
of 24 months on active duty in Iraq and Afghanistan. But typically, 
they serve 24 months over multiple deployments. The current criteria 
for the Montgomery G.I. Bill eligibility only allows individuals who 
serve at least 2 years of continuous active duty service to qualify for 
the full active duty benefit.
    Congressman Matheson's bill would allow Reservists and Guardsmen 
who serve a total of 24 months over a 5-year period on active duty to 
qualify for the full active duty educational benefit.
    I personally think this is an excellent piece of legislation. I am 
proud to co-sponsor it. Would DOD or the V.A. object to such 
legislation?
    Mr. Dominguez. House Resolution (H.R.) 1211 would allow members of 
the Selected Reserve who accumulate more than two years of mobilized 
service within any five-year period to enroll in the active duty 
Montgomery GI Bill (MGIB). Currently, members of the Ready Reserve who 
serve continuously on active duty for two years are eligible to enroll 
in the active duty MGIB, have their pay reduced by $1,200, and become 
eligible for the same education benefits that accrue to a Service 
member who enlists on active duty for a period less than three years. 
This provision supports the transition/readjustment purposes of the 
MGIB for both categories of service. We would not support extending 
this transition/readjustment benefit to members of the Selected Reserve 
who serve multiple, but shorter, periods of mobilized service. Rather 
than amending the MGIB eligibility requirement as proposed in H.R. 
1211, the Department is considering an amendment to the Reserve 
Educational Assistance Program (REAP) in chapter 1607 of Title 10, 
United States Code, that would allow for cumulative rather than 
continuous service to achieve eligibility for that program. This would 
essentially yield the same result, except that modifying REAP would not 
only provide a richer benefit, but would also serve as an incentive for 
continued service.
    Mr. Murphy. Why are we forcing the recruits to pay the money up 
front and out of pocket to participate in this program. Has the DOD 
thought of any alternatives that would not discourage soldiers from 
enrolling in this program?
    And you know, I am assuming that you are intrigued by Ms. Davis's 
bill, and I would ask for a written response as well within 30 days, if 
you could both look at it. Do you have any objections to giving a 
response to Ms. Davis's bill and doing a cost-benefit analysis of that?
    Mr. Dominguez The concept of permitting Reserve component members 
who are participating in the Montgomery GI Bill (MGIB)--Selected 
Reserve program to buy additional benefits, similar to the option 
currently available to MGIB Chapter 30 participants is certainly an 
intriguing concept, but one that we would need to examine in the 
context of its utility in assisting the Department in meeting its force 
management objectives. If it were to be patterned after the Chapter 30 
program, a participating member would be able to purchase a total 
benefit increase at about a one to nine ratio--for every dollar the 
member would pay, he or she would purchase nine dollars of benefits up 
to a set maximum, which is $5,400 for the Chapter 30 program. The 
potential costs to the government of such an option would have to be 
weighed carefully against the resulting effect on recruiting and 
retention. We have not modeled the potential effect such a change might 
have on force management. However, if providing an enhanced benefit 
would be a cost effective way of overcoming recruiting or retention 
shortfalls, or help staff under-subscribed career fields, then the 
Department would be interested in pursuing such an initiative.
    Mr. Murphy. My colleague, Congressman Matheson of Utah, has 
introduced a bill that deals with a critically important issue that I 
want to get both of your opinions on.
    Many Guardsmen and Reservists across the Nation have served a total 
of 24 months on active duty in Iraq and Afghanistan. But typically, 
they serve 24 months over multiple deployments. The current criteria 
for the Montgomery G.I. Bill eligibility only allows individuals who 
serve at least 2 years of continuous active duty service to qualify for 
the full active duty benefit.
    Congressman Matheson's bill would allow Reservists and Guardsmen 
who serve a total of 24 months over a 5-year period on active duty to 
qualify for the full active duty educational benefit.
    I personally think this is an excellent piece of legislation. I am 
proud to co-sponsor it. Would DOD or the V.A. object to such 
legislation?
    Mr. Wilson. Views and cost analysis is currently in the VA 
concurrence process.
    Mr. Murphy. Why are we forcing the recruits to pay the money up 
front and out of pocket to participate in this program. Has the DOD 
thought of any alternatives that would not discourage soldiers from 
enrolling in this program?
    And you know, I am assuming that you are intrigued by Ms. Davis's 
bill, and I would ask for a written response as well within 30 days, if 
you could both look at it. Do you have any objections to giving a 
response to Ms. Davis's bill and doing a cost-benefit analysis of that?
    Mr. Wilson. We defer to the Department of Education on questions 
regarding the determination of financial assistance (Title 20 U.S.C.) 
for veterans and service members.
    Mr. Murphy. It seems to me that we ought to be encouraging the best 
and the brightest and the most highly trained and educated people to 
join our military, so how about doing it retroactively--you know, 
applying the G.I. benefit bills to student loans already incurred, to 
encourage the best and brightest to serve our country? Has that been 
looked at?
    Mr. Wilson. The National Call to Service Program (NCS) is a 
recruitment incentive program offered by DoD. The participant may elect 
from one of four incentives, payable after completing an initial active 
service period of 15 months plus completion of required training. The 
incentives include a student loan repayment program that covers a 
student loan and interest up to a pre-set amount. This program is 
administered by DoD.
    VA administers two other incentive programs offered through the 
NCS: an education allowance payable of up to 12 months equal to the 
chapter 30, 3-year rate; and an education allowance payable by VA of up 
to 36 months of one-half of the chapter 30, 2-year rate.
    The election of a particular incentive program is irrevocable.

                                  <all>

</pre></body></html>
